HHS/OIG-Audit--"Review of Costs Claimed by American Health Care Services, (A-04-95-01104)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Costs Claimed by American Health Care Services," (A-04-95-01104)
June 4, 1996
Complete
Text of Report is available in PDF format (731 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that 24 percent of the claims made by American Health Care Services (American) during the
Fiscal Year (FY) ended December 31, 1993 did not meet Medicare reimbursement guidelines. Eleven percent were for visits
which in the opinion of medical experts were not reasonable or necessary, 4 percent were for services not provided, and
9 percent were for services which physicians either denied authorizing or authorized improperly. Of the $8.5 million claimed
by American for the FY, we estimate at least $1.2 million did not meet the reimbursement guidelines. We recommended that
the Health Care Financing Administration (HCFA) require the fiscal intermediary (FI) to instruct American on its responsibilities
to properly monitor its subcontractors for compliance with Medicare regulations and HCFA guidelines, monitor the FI and
American to ensure that corrective actions are effectively implemented, recover all overpayments, and direct the FI to
investigate all cases of possible fraud and refer them as necessary to the Office of Inspector General's Office of Investigations